HHS/OIG, Audit - "Medicaid Payments for Services Provided to
Beneficiaries With Concurrent Eligibility in Arizona and California for July 1,
2005, Through June 30, 2006 - Arizona Health Care Cost Containment System,"
(A-05-07-00057)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Payments for Services
Provided to Beneficiaries With Concurrent Eligibility in Arizona and California
for July 1, 2005, Through June 30, 2006 - Arizona Health Care Cost Containment
System," (A-05-07-00057)
May 5, 2008
Complete
Text of Report is available in PDF format (1.84 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For the period July 1, 2005, through June 30, 2006, we
estimated that Arizona paid approximately $500,000 ($335,000 Federal share) for
Medicaid services provided to beneficiaries who should not have been eligible
owing to their Medicaid eligibility/residence in California.  Both Arizona and
California require that Medicaid beneficiaries be residents.
We recommended that Arizona work with the California Medicaid agency to share
available Medicaid eligibility information for use in determining accurate
beneficiary eligibility status and reducing the amount of payments, estimated to
be approximately $500,000 ($335,000 Federal share), made on behalf of
beneficiaries residing in California.  Arizona acknowledged its obligation to
review beneficiaries eligibility and identified several issues that it believed
would reduce the reported payments.  We reviewed Arizonas comments and maintain
that our findings remain valid.
.